INSPECTOR GENERAL




         NATIONAL LABOR RELATIONS BOARD
                              WASHINGTON, DC 20570

I hereby submit this Semiannual Report: April 1 – September 30, 2007, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG) of the National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

In the audit program, OIG issued two audit reports with costs that could be put better use
of $40,239, two inspection reports, and one issue alert. In the investigations program,
OIG processed 93 contacts, initiated 5 cases, and closed 8 cases. The investigations
resulted in one resignation, one retirement, two suspensions, $118,087 in investigative
recoveries, two removals of contractor employees, and three referrals to the Department
of Justice. We reviewed four pieces of legislation. Details on these accomplishments
can be found in the body of this report.

In planning our work, the OIG takes into consideration issues of current interest to
Congress and the public. The intent is to enable the Agency to report that the OIG had
reviewed the issues and there were no problems or the problems had been identified and
corrected. We are pleased to report that several issues receiving negative press this
period had been reviewed by the OIG.

   •   The misuse of credit and travel cards continued to be of great interest to
       Congress and the public. We did extensive audit and investigative work in
       2002, and worked with the Agency to implement internal controls. We
       reviewed these controls in December 2006 and found that they were working
       fairly well. Accordingly, while other agencies continue to report significant
       problems, the NLRB has few cases of misuse.

   •   A newspaper reported examples of executive branch officials who reportedly
       accepted trips from companies and trade association with a stake in their agency’s
       decisions. We reviewed the NLRB’s procedures and reported in August 2006 that
       travel was properly reimbursed and reports to the Office of Government Ethics
       were complete and accurate. The Agency had a good system needing minor
       adjustments.
                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1              April 1 – September 30, 2007
                                                                       AGENCY PROFILE

The present Board Members and                   throughout the country. Three satellite
General Counsel have served throughout          offices for the Administrative Law
this reporting period.                          Judges are located in Atlanta, San
                                                Francisco, and New York City. Since
The NLRB received an appropriation of           October 2, 2000, field offices have
$251,507,470 for Fiscal Year (FY) 2007          included 32 Regional Offices, 16
to fund a ceiling of 1,735 full-time            Resident Offices, and 3 Subregional
equivalents. NLRB Headquarters is at            Offices.
1099 14th Street, NW, Washington, DC.
                                                Additional information about the NLRB
In addition to the Headquarters building,       can be found on the Web site
employees are located in 51 field offices       www.NLRB.gov.




NLRB OIG Semiannual Report                  2              April 1 – September 30, 2007
                                  OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                     OIG consists of a Counsel/Assistant
The FY 2007 OIG budget was                    Inspector General for
$1,088,200 for operations, of which           Investigations, Assistant Inspector
$181,000 was for contract services. In        General for Audits, three auditors (one
addition to the Inspector General, the        currently vacant), and a staff assistant.




NLRB OIG Semiannual Report                3               April 1 – September 30, 2007
                                                              AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports with costs that could be put to better use of $40,239, two inspection reports, and
one issue alert.

Reports Issued                                   incorporate lessons learned from those
•   We issued Audit Report                       experiences into its COOP plans.
OIG-AMR-55-07-03, Continuity of
Operations, on September 18, 2007.               The Agency’s COOP plans do not meet
We evaluated the NLRB’s continuity of            the requirements of Federal
operations (COOP) plans to determine             Preparedness Circular 65 (FPC 65), most
whether they meet Federal guidelines             important of which is the proper
and have been tested.                            identification of essential functions. The
                                                 plans that had essential functions
Agency operations have been affected             identified them generally as case
by two disasters: the terrorist attack at        handling, payroll, and protection of
the World Trade Center on September              employees and property. This general
11, 2001, and Hurricane Katrina, which           description does not meet the criteria
made landfall on August 29, 2005.                established by FPC 65. Because the
Although COOP plans were not in place            essential functions were not properly
at the time of the attack on the World           identified, the remaining elements of
Trade Center, they were in place for             COOP plans would not support the
Hurricane Katrina. An action that                Agency’s essential functions during an
appears to have enhanced the Agency’s            emergency.
COOP abilities after those events was
the assignment of at least one other field       Management generally agreed with the
office to provide support for essential          findings and recommendations. A
functions. However, the Agency did not           COOP Working Group was formed to
                                                 implement corrective actions.



NLRB OIG Semiannual Report                   4               April 1 – September 30, 2007
                                                                            AUDIT PROGRAM

•   We issued Audit Report                         The Agency incrementally recorded the
OIG-AMR-56-07-04, Health Services,                 health services agreement with Federal
on September 19, 2007. We reviewed                 Occupancy Health Services for both FY
the Agency's health unit program to                2006 and FY 2007. In both instances,
determine whether services are procured            the amount was not properly recorded
in a cost-efficient manner and to                  for at least 6 months.
evaluate the level of service provided.
                                                   Management agreed with the findings
                                                   and all but one of the recommendations.
We identified more than $40,000 that the
                                                   The $6,354 was deobligated.
Agency could put to better use in the
health services program. Health services
                                                   After initially disagreeing with our
paid for by the Agency went unused by
                                                   recommendation to pursue options to
some offices and the utilization rate was
                                                   share space rent costs with the other
so low in other offices that procuring
                                                   agencies using the Headquarters health
these services is not cost-effective.
                                                   unit, management contacted GSA
                                                   regarding that issue. GSA agreed with
We estimate that the Agency could put
                                                   our assessment that the health unit was
$33,885 to better use by eliminating
                                                   joint use space for which all tenants
health services at underutilized facilities.
                                                   should pay a pro rata share based on the
Another $6,354 could be put to better
                                                   space they occupy in the building. GSA
use by deobligating funds from the FY
                                                   is now determining the amount of rent
2007 health services contract that will
                                                   that should be shared among the tenants
not be expensed to provide health
                                                   and will provide a reduction in the
services. Also, funds could be saved by
                                                   NLRB’s rent in the Occupancy
having other agencies that use the health
                                                   Agreements when executing the renewal
services at Headquarters share space rent
                                                   option for the Headquarters space.
costs.




NLRB OIG Semiannual Report                     5               April 1 – September 30, 2007
                                                                          AUDIT PROGRAM

•   We issued Inspection Report                  •   We issued Inspection Report
OIG-INS-49-07-01, Board Statistical              OIG-INS-50-07-02, Federal Employees'
Study, on July 18, 2007. We conducted            Compensation Act, on September 18,
this inspection to determine whether             2007. We determined whether the
timeliness of case processing before the         Federal Employees’ Compensation Act
Board is impacted by the type of party           program at the NLRB is operating
filing exceptions to the administrative          effectively and in accordance with
law judge's (ALJ) decision.                      Federal regulations.


We found no indication of purposeful             The Agency is not effectively managing
delay based on the identity of the party         workers’ compensation cases. Of the 20
filing exceptions to an ALJ decision. In         cases we identified requiring regular
FY 2006, 79 percent of cases with                monitoring, 13 were not regularly
exceptions to ALJ decisions were filed           monitored. These cases lacked either
by employers, while 92 percent of these          sufficient medical documentation to
cases were initiated by charges against          verify the claimants’ continued
employers. Because of this disparity,            eligibility for benefits or a confirmation
drawing conclusions regarding disparate          of survivors’ eligibility to continue
treatment of the parties is difficult.           receiving death benefits.


Nevertheless, the statistics showed              The Office of Workers’ Compensation
substantial delay in the Board issuing           Program (OWCP) did not receive NLRB
decisions and, in turn, substantial delay        workers’ compensation claims within 10
in providing remedies under the NLRA,            working days of receipt as required by
the impact of which is disparately felt by       Federal regulations. On average, it took
employees.                                       29 working days to receive claims.




NLRB OIG Semiannual Report                   6               April 1 – September 30, 2007
                                                                       AUDIT PROGRAM

•   We released Issue Alert                     •   Audit of the NLRB Fiscal
OIG-IA-07-02, Financial Reporting               Year 2004 Financial Statements,
Requirements, on August 13, 2007. We            OIG-F-9-05-01, was issued on
provided this issue alert to identify           December 22, 2004, and we reached
changes in the Office of Management             agreement with management on that
and Budget (OMB) Circular A-136,                date. Action was completed on the final
Financial Reporting Requirements, that          open recommendation. We closed the
may impact the Agency’s annual                  audit report on September 25, 2007.
Performance and Accountability Report.
                                                •   Non-Standard Work Hours
For FY 2007, the Agency will need to            Compensation, OIG-AMR-47-05-04,
modify the content and placement of             was issued on August 9, 2005, and we
management assurances, present the              reached agreement with management on
Statement of Financing as a footnote,           that date. Action has been completed on
and include tables in the Other                 five of seven recommendations. A
Accompanying Information section that           recommendation to develop a plan to
summarize financial statement audit             conduct regular time and attendance
results and management assurances.              reviews was completed on April 23,
Beginning in FY 2009, the Agency will           2007, by issuing Administrative Policies
need to change how backpay is reported          and Procedures Manual (APPM)
in the financial statement to be in             Chapter PER-27, Program Management
conformance with the new accounting             and Evaluation Program.
standards.
                                                The Agency planned to implement the
Audit Follow-up                                 remaining two recommendations by
Agreed upon actions were not completed          issuing an APPM chapter titled
within 1 year on three audit reports. One       Alternative Work Schedules. We
of these reports is now closed.                 reviewed a draft of this document in



NLRB OIG Semiannual Report                  7              April 1 – September 30, 2007
                                                                       AUDIT PROGRAM

June 2007 and it addressed the two open       recommendations. Management decided
recommendations. Most recently,               not to implement one recommendation
management decided to issue an                and corrective action on another was
administrative policy circular.               incomplete.


The original estimated completion date        We recommended that the Agency re-
was June 30, 2006; 11 months was a            compete an information technology
reasonable amount of time to issue a          support services contract to obtain a
policy in our opinion. Despite our            fixed-price contract, or if the contract is
repeated requests to management and the       not re-competed, to negotiate with the
Audit Follow-up Official to give these        contractor to use labor rates identified in
actions more priority, the estimated          the statement of work (SOW). We
completion date was then revised to           estimated that the Agency could put over
September 2006, December 2006, June           $500,000 to better use for the base
2007, and most recently to December           period and four option years if the
2007. Taking more than 2 years to             correct labor rates were used.
implement recommendations that do not
require major expenditures or system          Instead of negotiating with the
development efforts is unreasonable and       contractor to use labor rates identified in
reflects poorly on the Agency's               the SOW, the Agency attempted to
appreciation for internal controls.           justify labor categories different than
                                              those in the SOW. These needs were
•   Information Technology                    outside the scope of the original
Procurement Actions, OIG-AMR-51-              contract. We closed this
06-02, was issued on June 29, 2006, and       recommendation based on a
we reached agreement with management          memorandum by the Audit Follow-up
on August 14, 2006. Action has been           Official on July 18, 2007, stating that the
completed on five of the seven                Chief Information Officer was adamant
                                              that the contract not be re-competed and

NLRB OIG Semiannual Report                8               April 1 – September 30, 2007
                                                                       AUDIT PROGRAM

that he had no basis for disagreeing with       We notified the Audit Follow-up
him. The recently hired Contract and            Official who responded that the Director
Procurement Section Chief subsequently          of Administration had again stated that
determined that this contract needed to         all data had been entered into FPDS.
be re-competed to correct multiple
deficiencies.                                   Since then, we reviewed the data in
                                                FPDS six times and found the data was
We also recommended that the Agency             not entered for contracts awarded as
implement procedures to enter data into         long as 11 months ago. When we last
the Federal Procurement Data System             reviewed FPDS on October 12, 2007, we
(FPDS) in a timely manner. The                  found that 28 percent of applicable
Division of Administration claimed              procurement actions had not been
completion of this recommendation               entered.
several times in quarterly progress
reports, which we found to be incorrect.




NLRB OIG Semiannual Report                  9              April 1 – September 30, 2007
                                               INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 93 contacts, initiated 5 cases, and closed 8 cases. The investigations resulted
in one resignation, one retirement, two suspensions, $118,183 in investigative recoveries,
two removals of contractor employees, and three referrals to the Department of Justice.


                        Case Workload                    Contacts Processed

                  Open (4/1/2007)         12        Received                  93

                  Initiated                5        Initiated Investigation    2

                  Closed                   8        Opened Case --             0
                                                    Referred to Agency
                  Open (9/30/2007)         9        Non-Investigative         91
                                                    Disposition


•   Mail Fraud. As previously                        •    Attorney Misconduct. As
reported, OIG initiated this case after              previously reported, OIG initiated this
receiving information that the subject               case after learning that an attorney
may have engaged in mail fraud by                    copied the trial notes of opposing
using the U.S. Mail to send fraudulent               counsel without permission and then was
documents to a third party. The                      instructed by two management-level
documents involved providing                         attorneys to destroy the notes without
information regarding the subject's                  notifying the opposing counsel or the
position with the Agency. We referred                administrative law judge. Our
our investigative findings to the local              investigative efforts substantiated the
U.S. Attorney's Office. During this                  allegation.
reporting period, the U.S. Attorney’s
Office and the subject entered into an               Because this allegation involved the
agreement for the subject’s resignation              obstruction of justice, we notified the
in lieu of prosecution. (OIG-I-398)                  local U.S. Attorney's Office.




NLRB OIG Semiannual Report                     10                   April 1 – September 30, 2007
                                                                INVESTIGATIONS PROGRAM

Prosecution of the subjects was declined.         settlement that provided a $14,096
During this reporting period, the subjects        refund. The Agency also terminated the
received disciplinary action that                 contract, an action that resulted in a
consisted of a 21-day suspension for one          savings of $101,230. (OIG-I-404)
subject and a 14-day suspension for
another. A third subject agreed to retire         At the Agency's request, the second
in lieu of discipline. The Agency also            contractor removed the employee. The
forwarded the OIG investigative report            Agency and the contractor reached a
to the appropriate disciplinary                   settlement that provided a $2,857 refund.
authorities for attorney misconduct.              (OIG-I-401)
(OIG-I-400)
                                                  •   Misuse of the Internet. OIG
•   Contractor Internet Misuse.                   initiated this case after proactive review
The OIG initiated two investigations of           of the Agency's Internet firewall logs.
contract personnel for misusing the               Our review of those logs provided
Agency's Internet access. During a                evidence to support an allegation that the
routine review of the Agency's Internet           subject was using official time and
firewall logs, we found evidence that the         Agency resources to engage in personal
Agency was charged for services during            financial investment activity. The
the time when the contract employees              subject admitted that he used official
were using the Agency's Internet access           time and the Agency’s Internet access to
to view sexually explicit material. After         trade and monitor stock investments.
seizing the hard drives from the
Government computers that were                    After we issued our report, the subject
assigned to the contract employees, we            received informal counseling regarding
substantiated the allegations.                    the proper use of official time and the
                                                  Agency Internet access. (OIG-I-404)
One contractor removed the employee.
The Agency and the contractor reached a


NLRB OIG Semiannual Report                   11               April 1 – September 30, 2007
                                                                 INVESTIGATIONS PROGRAM

•   Travel Card Misuse. OIG initiated              of justice and false statements, we
this case after the Chief, Finance                 referred this matter to the U.S.
Branch, reviewed the transactions for the          Attorney’s Office which declined
CitiBank Travel Card and found                     prosecution. Agency managers are
improper charges by the subject. When              currently considering disciplinary action.
the Chief, Finance Branch, asked about             (OIG-I-407)
the charges, the subject provided a
misleading statement. Our investigative            •   Obstruction of Justice. OIG
efforts identified additional charges that         initiated an investigation of an employee
were not related to official travel. When          who failed to process litigation material
interviewed, the subject admitted that he          related to the Agency’s cases pending in
engaged in this misconduct. Agency                 the circuit courts. The U.S. Attorney’s
managers are considering disciplinary              Office declined prosecution. We are
action. (OIG-I-402)                                continuing our investigative efforts as an
                                                   administrative matter. (OIG-I-411)
•   Altering Evidence. OIG initiated
this investigation after receiving a report        •   Fraud. OIG initiated an
that the subject interfered with an unfair         investigation of two employees who
labor practice (ULP) investigation by              were suspected of creating fraudulent
altering e-mail messages that she                  earnings and leave statements for
received from a party involved in the              themselves and third parties who
ULP investigation. The e-mail messages             submitted them with an application for
were relevant to a pending ULP case and            housing benefits for low income
copies had been requested by an Agency             individuals. The U.S. Attorney’s Office
attorney. The subject admitted that she            declined prosecution. We are continuing
engaged in this misconduct.                        our investigative efforts as an
Because the subject's conduct violated             administrative matter. (OIG-I-412)
Federal statutes regarding the
obstruction

NLRB OIG Semiannual Report                    12               April 1 – September 30, 2007
                                                               INVESTIGATIONS PROGRAM

•   Prohibited Personnel Practice.               received, regardless of the method used,
OIG referred an allegation to the U.S.           is referred to as HOTLINE contacts.
Office of Special Counsel after receiving
a Hotline complaint alleging that a              The information received over the
person selected for a position received          hotline is the basis for the initial review
an unauthorized preference in violation          for potential investigations. The
of 5 U.S.C. § 2302(b)(6).                        information is analyzed to determine if
                                                 further inquiry is warranted. Most
The allegation was that a manipulation           HOTLINE contacts are calls from
of the competitive process ensured the           members of the public seeking help on
selection of an individual who was not           an employment related problem or issues
originally found to be on the best               outside OIG and/or Agency jurisdiction.
qualified list. (OIG-I-410)
                                                 As appropriate, OIG refers these callers
Hotline                                          to the Regional Office; local, state, or
Employees and members of the public              Federal agency; or private resource to
with information on fraud, waste, and            provide assistance.
abuse are encouraged to contact OIG. A
log of calls to a nationwide toll free           During this reporting period, OIG
number or the office numbers and a log           received 93 hotline contacts, of which 48
of mail, e-mail, and facsimile messages          were telephone calls and 45 were in
are maintained. All information                  writing.




NLRB OIG Semiannual Report                  13               April 1 – September 30, 2007
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed four pieces of legislation.

Legislation                                         would designate the pay level for
We reviewed the following legislation               Presidential appointed Inspectors
and provided input when appropriate.                General as Executive Level III and
                                                    would require other Inspectors General
S. 1723, Improving Government                       to be at a pay rate that is comparable to a
Accountability Act - This legislation               majority of the agency’s senior staff. It
would amend the IG Act to allow an                  would also prohibit cash awards. We
Inspector General to be removed from                continue to monitor the progress of two
office prior to the expiration of his or her        other related bills, S. 680 and H.R. 928,
term only for certain reasons and would             both of which contain similar changes to
establish the term of office as 7 years. It         the IG Act and were discussed in a prior
would require the appointment of a                  report.
Counsel to the Inspector General for
each office. The legislation would                  S. 969, Re-empowerment of Skilled
authorize an Inspector General to                   and Professional Employees and
annually transmit an appropriation                  Construction Tradesworkers Act
estimate and request to the Director of             "RESPECT Act" – This legislation
OMB and to the appropriate                          would amend the NLRA to alter the
congressional committees. It establishes            definition of "supervisor" by requiring
a Council of the Inspectors General.                that an employee engage in supervisory
The legislation considers each OIG to be            duties a "majority of the individual’s
a separate Federal agency and would                 worktime" and would delete "assign"
allow designated federal entities to                and "responsibly to direct them" from
request law enforcement authority. It               the list of supervisory duties.




NLRB OIG Semiannual Report                     14               April 1 – September 30, 2007
                                                LEGISLATION, REGULATIONS, AND POLICY

S. 1570 and H.R. 2670, Truth in                  Testimony
Employment Act of 2007 – This                    The Inspector General submitted a
legislation would amend section (8)(a)           statement for a hearing conducted by the
of the NLRA to ensure that the                   U.S. Senate Homeland Security and
subsection would not be construed as             Governmental Affairs Committee. The
requiring an employer to employ any              purpose of the hearing was to gather
person who seeks or has sought                   information regarding strengthening the
employment in furtherance of other               role of the Federal Inspectors General.
employment or agency status. The                 The statement included comments on
stated purpose of this legislation is to         removal for cause and term
alleviate pressure on employers to hire          appointments; direct budget
individuals who seek or gain                     submissions; Inspector General
employment in order to disrupt the               qualifications; requirements for notice to
workplace or otherwise inflict economic          Congress for removal of an Inspector
harm.                                            General; and supervision, pay, and
                                                 awards.
H.R. 1822, Workplace Representation
Integrity Act – This legislation would           Regulations
amend the NLRA to require attestation            The Counsel to the Inspector General is
and proof of citizenship or lawful               an advisory member of the Agency's
residency from employees seeking labor           Rules Revision Committee that develops
representation by way of a process other         changes to the Agency's procedural
than through a secret ballot election.           regulations.




NLRB OIG Semiannual Report                 15                April 1 – September 30, 2007
                                                        LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
The Inspector General is a member of              of Counsels to Inspectors General
the Executive Council on Integrity and            (CCIG). The Counsel also participated
Efficiency (ECIE), which consists                 in a working group of the CCIG that
primarily of the inspectors general at the        developed an analysis of unique legal
designated Federal entities in the IG Act.        issues encountered by OIG investigators.
She participated in activities sponsored          The legal analysis was requested by
by the President's Council on Integrity           instructors from the Federal Law
and Efficiency (PCIE), which consists             Enforcement Training Center.
primarily of the Presidentially-appointed
inspectors general. She became a                  Government Accountability Office
member of the Legislative Committee in            The IG Act states that each inspector
February 2007.                                    general shall give particular regard to the
                                                  activities of the Comptroller General of
The Assistant Inspector General for               the United States, as head of the
Audits, or designated auditors,                   Government Accountability Office
participated in the Federal Audit                 (GAO), with a view toward avoiding
Executives Council, Financial Statement           duplication and ensuring effective
Audit Network, and the Interagency                coordination and cooperation. One
Investigative Data Mining Working                 review of NLRB is currently ongoing.
Group.




NLRB OIG Semiannual Report                   16               April 1 – September 30, 2007
                                                                    LIAISON ACTIVITIES

At the August 28, 2007, ECIE meeting,           structures. This evaluation was
GAO announced that they were planning           requested by Senator Charles Grassley.
to evaluate the governance structures at        Official notifications were subsequently
designated federal entities and the             sent to the Chairman and General
inspectors general's roles and reporting        Counsel.
relationships within the governance




NLRB OIG Semiannual Report                 17              April 1 – September 30, 2007
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Three cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 19.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. One audit report issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period. On page 8 of this report, we discuss a revised management decision with
                which we disagree.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      18                   April 1 – September 30, 2007
                           AUDIT REPORTS BY SUBJECT MATTER

                                                                       Funds To
                               Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number         Costs          Costs        Costs      Better Use

ADMINISTRATION

Continuity of Operations
OIG-AMR-55-07-03                   0             0            0            0


Health Services
OIG-AMR-56-07-04                   0             0            0         $40,239




NLRB OIG Semiannual Report             19            April 1 – September 30, 2007
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    20       April 1 – September 30, 2007
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            1          $342,000

B. Which were issued during the
   reporting period                      1          $40,239

       Subtotals (A+B)                   2          $382,239


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         1          $40,239

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      1          $342,000

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   21         April 1 – September 30, 2007
Every employee is the
guardian of integrity                                    .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   22   April 1 – September 30, 2007
